Executive Report
Return
to the USDOJ/OIG Home Page
Offices, Boards and DivisionsAnnual Financial StatementFiscal Year 1999
Report No. 00-19August 9, 2000Office of the Inspector General
COMMENTARY AND SUMMARY
The Offices, Boards and Divisions (OBDs) of the Department of Justice includes the U.S. Attorneys, U.S. Trustees, Office of Community Oriented Policing Services, Executive Office for Immigration Review, Legal Activities and General Programs.  Some of the OBDs' responsibilities include representing the American people in all legal matters involving the United States Government, supervising the administration of bankruptcy cases and private trustees in the Federal Bankruptcy Courts, upholding the civil rights of all Americans, enforcing laws to protect the environment, and safeguarding the consumer from fraudulent activity.  In FY 1999, the OBDs had funding of approximately $5 billion.
This audit report contains the Annual Financial Statement of the OBDs for the fiscal year ended September 30, 1999.  The audit was performed by PricewaterhouseCoopers LLP (PwC) and resulted in an unqualified opinion.  An unqualified opinion means that the financial statements present fairly, in all material respects, the financial position and results of operations of the entity.  For FY 1998, the OBDs received a disclaimer of opinion on its financial statements (OIG Report 99-30).
The OBDs greatly improved in its ability to meet federal financial reporting requirements.  Reductions in the significance and number of internal control weaknesses enhanced the overall quality of the financial records.  These improvements in the quality of the financial records allowed the auditors to issue an unqualified opinion.  However, there are areas that still warrant management's attention, including reportable conditions on reporting financial transactions in accordance with generally accepted accounting principles, accounting for financial grant data, and computer security controls over the Financial Management Information System.
Similar to the prior year, the OBDs Annual Financial Statement consists of a balance sheet, statement of net cost, statement of changes in net position, statement of budgetary resources, and statement of financing.  However, comparative financial statements were not required this year and are therefore not presented.